27

1

App a.
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Everett McKinley Dirksen United States
Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604
Office of the Clerk Phone: (312) 435-5850
www.ca7.uscourts.gov
FINAL JUDGMENT
March 14, 2019
Before: FRANK H. EASTERBROOK, Circuit
AMY C. BARRETT, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
Nos.: 18-2702, 18-2703,
18-2706, 18-2707,
18-2711, 18-2712,
18-2716, 18-2717,

18-2704, 18-2705,
18-2708, 18-2709, 18-2710,
18-2713, 18-2714, 18-2715,
18-2718, and 18-2719

STEVEN E. DAVIS, et al., Plaintiffs-Appellants
v.
BANK OF AMERICA CORPORATION, et al.,
Defendants-Appellees.
Appeals from the United States
District Court for the
Northern District of Illinois Eastern Division.

No. 17 C 7714 Charles P. Kocoras, Judge On
consideration of the papers filed in these appeals
and review of the short records, IT IS ORDERED that all nineteen of these appeals
are DISMISSED for lack of jurisdiction. Twenty-five plaintiffs in this case filed
nineteen notices of appeal on August 6, 2018, seeking review of judgment entered

2

on December 5, 2017, and an order denying a motion to reopen the case that was
entered on December 14, 2017. Rule 4(a) of the Federal Rules
of Appellate Procedure, however, requires that a
notice of appeal in a civil case, such as the one filed
this case, should be filed in the district court within
30 days of the judgment or order appealed. All the
notices of appeal was filed on the same day-August
6, 2018. As such, these appeals are about seven
months late as to both the December 5, 2017, judgment and the December 14, 2017
order.
The court further notes that the district court has
Not granted an extension of the appeal period, see
Rule 4(a)(5), and this court is not empowered to do so. See Rule. The petition for
rehearing is therefore
DENIED.

App B.
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Everett McKinley Dirksen United States
Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604
Office of the Clerk Phone: (312) 435-5850
www.ca7.uscourts.gov
JUDGMENT
March 5, 2019

3

Before: FRANK H. EASTERBROOK, Circuit
AMY C. BARRETT, Circuit Judge
MICHAEL B. BRENNAN, Circuit Judge
Nos.: 18-2701,18-2702, 18-2703,18-2704, 18-2705,
18-2706, 18-2707, 18-2708, 18-2709,18-2710,
18-2711, 18-2712, 18-2713, 18-2714,18-2715,
18-2716,18-2717, 18-2718, and 18-2719

STEVEN SEGURA, et al., PlaintifFs-Appellants
v.
BANK OF AMERICA CORPORATION, et al.,
Defendants-Appellees.

Appeals from the United States
District Court for the
Northern District of Illinois Eastern Division.

Eastern Division. No. 17 C 7714 Charles P.
Kocoras, Judge. On consideration of the papers filed in these appeals and received
of the short records,
IT IS ORDERED that all nineteen of these appeals are DISMISSED for lack of
Twenty-five plaintiffs in this case filed nineteen notices of appeal on August 6,
2018, seeking review of the judgment entered on December 5, 2017, and an order
denying a motion to reopen the case that was entered on December 14, 2017. Rule
4(a) of the Federal Rules of Appellate Procedure, however, requires that a notice of
appeal in a civil case, such as the ones filed in this case, should be filed in the
district court within 30 days of entry of the judgment or order appealed.
All the notices of appeal were filed on the same
day — August 6, 2018. As such, these appeals are
about seven months late as to both the December 5, 2017 judgment and the
December 14, 2017 order. The court further notes that the district court has not
granted an extension of the appeal period, see Rule 4(a)(5), and this court is not
empowered to do so. See Rule 26 (b).

4

AppC
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Everett McKinley Dirksen United States
Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604
Office of the Clerk Phone: (312) 435-5850
www.ca7.uscourts.gov
NOTICE OF ISSUANCE OF
MANDATE
March 5, 2019
To: Thomas G. Bruton
UNITED STATES DISTRICT COURT
Northern District of Illinois
Chicago, IL 60604-0000
Nos. 18-2702: STEVEN E. DAVIS,
Plaintiff - Appellant et, al
v.

BANK OF AMERICA CORPORATION, et al.,
Defendants-Appellees.
18-2703: DARRYL E. BELL, et al.,
v. Plaintiff - Appellant et, al
BANK OF AMERICA CORPORATION, et al.,
Defendants-Appellees.
18-2704: ELIZABETH ROBINSON et, al.,

5

Plaintiff - Appellant
v.
BANK OF AMERICA CORPORATION, et al.,
Defendants-Appellees.

18-2705: LARRY BROWN, et al.,
Plaintiff - Appellant
v.
BANK OF AMERICA CORPORATION, et al
Defendants-Appellees.
18-2706: PEGGY L. STRONG et, al.,
Plaintiff - Appellant
v.
BANK OF AMERICA CORPORATION, et al.,
Defendants-Appellees.
18-2707: LOUIS G. BARTUCCI, et, al.,
Plaintiff - Appellant
v.
BANK OF AMERICA CORPORATION, et al.,
Defendants-Appellees.
18-2708: DENNIS F. MARTINEK, et, al,.
Plaintiff - Appellant
v.
BANK OF AMERICA CORPORATION, et al.,
Defendants-Appellees.
18-2709: JEFFREY R. SANDERS, et,al.,
Plaintiff - Appellant
v.
BANK OF AMERICA CORPORATION, et al.,
Defendants-Appellees.
18-2710: CHERYL M. MALDEN, et. al.,
Plaintiff - Appellant
v.
BANK OF AMERICA CORPORATION, et al.,
Defendants-Appellees.

6

18-2711: YVONNE SINGLETON, et,al,.
v.
Plaintiff - Appellant
BANK OF AMERICA CORPORATION, et al,
D efendants-Appellees.
18-2712: DENISE WOODGETT et, al.,
Plaintiff - Appellant
v.
BANK OF AMERICA CORPORATION, et al.,
Defendants-Appellees.
18-2713: ZDISLAW KRAJEWSKI et, al,
Plaintiff - Appellant
v.
BANK OF AMERICA CORPORATION, et al.,
Defendants-Appellees.
18-2714: RALPH E. HOLLEY, et al,
Plaintiff - Appellant
v.
BANK OF AMERICA CORPORATION, et al.,
Defendants-Appellees.
18-2715: EMMANUEL S. BANSA, et al.,
Plaintiff - Appellant
v.
BANK OF AMERICA CORPORATION, et al.,
Defendants-Appellees.
18-2716: GERALDINE BLANTON, et,al,.
Plaintiff - Appellant
v.
BANK OF AMERICA CORPORATION, et al.,
Defendants-Appellees.

18-2717: ULSEN ANDERSON, et al.,
Plaintiff - Appellant
v.
BANK OF AMERICA CORPORATION, et al.,

7

Defendants-Appellees.
18-2718: MACK GLOVER, et, al,.
Plaintiff - Appellant
v.
BANK OF AMERICA CORPORATION, et al.,
Defendants-Appellees.
18-2719: CHERYL BELL, et, al,.
Plaintiff - Appellant
v.
BANK OF AMERICA CORPORATION, et al.,
Defendants-Appellees.
Herewith is the mandate of this court in this
appeal, along with the Bill of Costs, if any.
A certified copy of the opinion/order of the court and judgment, if any, and any
direction as to costs shall constitute the mandate.

RECORD ON APPEAL STATUS

App D
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
Everett McKinley Dirksen
United States Courthouse Room 2722
219 S. Dearborn Street
Chicago, Illinois 60604

8

Office of the Clerk Phone: (312) 435-5670
ORDER DISMISSING
Original case
September 25, 2017
Before Judge Charles P. Kocoras
16-cv-05339
Sonya Davis, et al.,
v.
Bank of America, et al.,
Now before the Court is Bank of America
Corporation (“BAC”), JPMorgan Chase Bank,
N.A. (“Chase”), EMC Mortgage Corporation,
LLC (“EMC”), Bear Sterns Companies,
LLC (“Bear Sterns”), Deutsche Bank National
Trust Company (“Deutsche”), Wells Fargo &
Company (“WFC”), HSBC Bank USA, N.A.
Quicken Loan’s Inc. (“Quicken Loans”), Mortgage Electronic Registration Systems,
Inc.
(“MERS”) Merscorp Holdings, Inc.’s (collectively,
“Defendants”) Motion to Dismiss Plaintiff Sonya

Davis and thirty- eight other individual Plaintiffs’
(collectively,“Plaintiffs”). Third Amended
Complaint Pursuant Federal Rules of Civil
Procedure 8(a), 12(b)(6), 20(a) and 21. For the
following reasons, the Court grants Defendants’
Motion.
STATEMENT
Plaintiffs initially filed a pro se Complaint in
this action on June 8, 2016. On July 5, 2016, we
dismissed Plaintiffs Complaint, without prejudice, for violating Rules 8, 20, and 23.
At that time, we
urged Plaintiffs to seek counsel to assist with
Plaintiffs initially filed a pro se Complaint in
2016, we dismissed Plaintiffs Complaint, This
action on June 8, 2016. On July 5, 2016, we

9

dismissed Plaintiffs Complaint, without prejudice, for violating Rules 8, 20, and 23.
At that time, we urged drafting a new Complaint and to be sensitive to joinder of
the various parties. Plaintiffs retained
counsel and filed a Second Amended Complaint (the “SAC”).
On February 13, 2017, this Court Dismissed
Plaintiffs’ SAC without prejudice. In that Order,
this Court once again encouraged Plaintiffs to be
thoughtful of Rule 20 and to “consider that if they
Cannot Meet the requirements of Rule 20(a)(2) in one action, one or more plaintiffs
should sue one or more defendants in separate actions.”
Plaintiffs filed their Third Amended Complaint (the “TAC”) on April 13, 2017.
Defendants argue that “Plaintiffs took advantage of the opportunity to

Amend but made no meaningful effort to improve
the SAC.” We agree. The TAC, like its predecessor,
contains page after page of generalize
recriminations, but no allegations tethered to and
Plaintiff of Defendant. Plaintiffs allege that
Defendants Improperly disseminated their private
and confidential information, which Defendants allegedly information, which
Defendants allegedly
obtained while servicing Plaintiffs’ mortgages.
Based on this, Plaintiffs bring claims under the
Stored Communications Act, (“SCA”); the Gramm-Leach-Bliley Act, (“GLBA”); the
Fair Credit
Reporting Act, (“FCRA”); the Declaratory
Judgment Act, (“DJA”); and a claim for unjust
(“DJA”); and a claim for unjust Additionally,
Plaintiffs argue that Defendants violated the Real Estate, Settlement Case
Procedures Act (“RESPA”).
by mishandling their qualified written requests. However, in response to
Defendants’ Motion to Dismiss Plaintiffs, abandon three of their six claims as
“hav[ing] no true merit.”1 That leaves this Court
only to consider Plaintiffs claims arising under the
Fair Credit Reporting Act, the Gramm-Leach-Bliley Act, and for unjust
enrichment. We address each claim individually. To survive a Motion to Dismiss,
the Complaint must “contain a short and plain
statement of the claim showing that the pleader is entitled to relief.” Fed. R. Civ.
P. 8(a). The pleading standard set forth In Rule 8(a) “requires more than labels and

10

conclusions.” Bell Atlantic Corp. v. Twombly,550 U.S. 544, 555 (2007). A “complaint
must contain sufficient factual matter ... to ‘state

a claim to relief that is plausible on its face.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
Additionally, Rule 8(a)(2) Precludes lumping
plaintiffs and defendants together without
clarifying which plaintiff alleges what wrongdoing against which defendant. See
Bank of Am. N.A.
v. Knight, 725 F.3d 815,818 (7th Cir. 2013)
(“Liability is personal.. .Each defendant is entitled to know what he or she did that
is asserted to be
wrongful. A complaint based on a theory of
collective responsibility must be dismissed.”).
Lastly, Rule 8(a) “demands more than an
unadorned, the-defendant-unlawfully- harmedme accusation.” Iqbal, 556 U.S. at Plaintiffs
voluntarily dismissed their Claims relating to the
Stored Communications Act, the Real Estate
Settlement Procedures Act, and the Declaratory
Judgment Act. Case: l:16-cv-05993 Document # 213
Filed: Gramm-Leach-Bliley Claim Plaintiffs claim
fails for two reasons. First, Plaintiffs’ bald
statement that Defendants must have violated the
GLBA to “succeed” in the securitization of their
loans is a Conclusory statement in plain violation of Rule 8(a). Second, as
Defendants note, there is no private right of action under GLBA. See Johnson v.
Melton Truck Lines, Inc., No. 14 C 07858, 2016 WL 8711494, at *9 (N.D. Ill.
Sept.30, 2016) (“The GLBA, moreover, does not provide for a private right of action,
so [plaintiff]
Would not be able to bring a claim under that Act even if he had pled sufficient
facts to state a claim.”). Thus, Plaintiffs’ GLBA claim is dismissed. 2) Fair Credit
Reporting Claim the FCRA only

11

subjects “consumer credit reporting agencies,
furnishers of credit information to consumer credit reporting agencies, and users of
consumer credit
reports” to liability.
Jeffries v. Dutton & Dutton, P.C., No. 05 C 4249,
2006 WL 1343629, at *5 (N.D. Ill. May 11, 2006)
(internal quotations and citation omitted). The
statute “impose different obligations on [these]
three types of entities.” Gibson v. Profl Account
Mgmt., No. 11-12920- BC, 2011 WL 6019958, at *3 (E.D. Mich. Dec. 1, 2011).
Without identifying any particular FCRA provision, Plaintiffs claim that
Defendants “negligently violated” the statute by
“failing to adopt and maintain procedures designed to protect and limit the
dissemination of Plaintiffs’ and Class Members’ private and confidential
information for the permissible purposes outlined
by FCRA.” This allegation does not support FCRA liability on any Defendant’s
part, either as a “credit reporting agency,” “furnisher,” or “user.” FCRA
defines a “consumer reporting agency” as an entity
that “regularly engages ... in the practice
of assembling or evaluating consumer
credit information or other information on
consumers for the purpose of furnishing consumer reports to third parties.” 15
U.S.C. f 1681a(f).
Plaintiffs make no allegations in the TAC that this
definition encompasses Defendants. Instead,
Plaintiffs state that Defendants are in the mortgage business, “acting .. . as ... loan
originator[s],
servicers, depositors, sponsor[s], master servicer[s], and or [sic] trustees.” See
Mirfashishi v. Fleet
Mortg. Corp.,551 F.3d 682 (7th Cir. 2008) (holding

that mortgage bank was not a “consumer reporting
agency” under FCRA). Therefore, Plaintiffs fail
to state a claim that Defendants are consumer
reporting agencies. Likewise, Plaintiffs have not alleged any facts to state a claim
for “furnisher”
“user” liability. The only FCRA section that
potentially provides a private right of action
against “furnishers” is 15 U.S.C. § 1681s-2(b).
See Jeffries, 2006 WL 1343629, at *5.

12

To fulfill its obligations under the statute.
state a claim under that section, a plaintiff must allege that he provided notice of a
credit dispute to the consumer reporting agency, the agency notified the furnisher
of the dispute, and the furnisher failed to fulfill its obligations under the statute.
See id. Here, Plaintiffs make no such allegation.
Plaintiffs also cannot maintain a FCRA claim
Against Defendants as “users” because they fail to
allege facts showing that Defendants are “users” of consumer credit reports for
these reasons,
Plaintiffs’ FCRA claim is dismissed. 3) Unjust
Enrichment Plaintiffs’ unjust enrichment
claim fails because the subject matter of the claim is covered by contract. As
Defendants state in their
Motion to Dismiss, “[i]f a ‘contract exists between
The parties concerning the same subject matter
on which the [unjust enrichment] claim
rests, the existence of the contract bars a claim for unjust enrichment.’” Apex Med.
Research, AMR,
Inc. v. Arif, 145 F. Supp. 3d 814, 836 (N.D. Ill. 2015)
(internal quotations and citation omitted).

Thus, a mortgagor cannot sue his lender for
unjust enrichment in connection with his mortgage because a mortgage contract
covers the relationship of the parties.
See Perez v. Citicorp Mortg., Inc., 30 Ill. App. 3d
413,425 (1998). Accordingly, Plaintiffs’ unjust
enrichment claim is dismissed.
CONCLUSION
For the aforementioned reasons, the Court grants Defendants’ Motion to Dismiss.
It is so ordered.
Dated: 9/25/20 Charles P. Kocoras United States
District Judge.

13

App E
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
Everett McKinley Dirksen
United States Courthouse Room 2722
219 S. Dearborn Street
Chicago, Illinois 60604
Office of the Clerk Phone:
(312) 435-5670
ORDER
December 5, 2018
Before
Judge Charles P. Kocoras
17-cv-7714
Sonya Davis, et al.,
v.
Bank of America, et al.,

14

NOTIFICATION OF DOCKET ENTER
This docket entry was made by the Clerk
This docket entry was made by the Clerk On
Tuesday, December 5, 2017: MINUTE
Entry before the Honorable Charles P. Kocoras:
Status hearing held. For the reasons stated in open
court, this case is dismissed with prejudice. Civil
case terminated. Mailed notice.

App F
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
Everett McKinley Dirksen
United States Courthouse Room 2722
219 S. Dearborn Street
Chicago, Illinois 60604
Office of the Clerk Phone:
(312) 435-5670
ORDER
December 14, 2018
Before
Judge Charles P. Kocoras
17-cv-7714
NOTIFICATION OF DOCKET ENTER
This docket entry was made by the Clerk
Thursday, December 14, 2017: MINUTE
Entry before the Honorable Charles P.
Kocoras: Motion hearing held. Motion to petition
court to re-open case for the recusal of Hon. Judge
Charles P. Kocoras [74] is denied. Mailed notice
(vcf),

15

App G
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Everett McKinley Dirksen United States
Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604
Office of the Clerk Phone: (312) 435-5850
September 18, 2018
District Judge Charles P. Kocoras
ENTRY OF MOTION

Nos. 18-2702,18-2703,18-2704, 18-2705,
18-2706,18-2707, 18-2708, 18-2709,18-2710.
18-2711,18-2712,18-2713,18-2714,18-2715,
18-2716, 18-2717,18-2718, and 18-2719,
MACK GLOVER, STEVEN E. DAVIS, CHERYL M.
MALDEN, CHERYL BELL, LOUIS G. BARTUCCI,
DENNIS F. and SUSAN R. MARTINEK, DARRYL
and ANN CONEY-BELL, DENISE WOODGETT on
behalf of Estate DARREN WOODGETT,
ZDZISLAW KRAJEWSKI, PEGGY L. STRONG,
EMMANUEL S. and CONNIE C. BANSA, RALPH
GERALDINE BLANTON and JEFFERY R.
SANDERS
Plaintiffs - Appellants on behalf of themselves
and all Plaintiffs/Appellant Members
v.
V.

BANK OF AMERICA CORPORATION, WELLS

16

FARGO & COMPANY, HSBC BANK USA, N.A., US
BANK TRUST N.A., as TRUSTEE FOR LSF9
MASTER PARTICIPATION TRUST, JP MORGAN
CHASE BANK N.A., DEUTSCHE BANK
NATIONAL TRUST COMPANY, SOLELY IN ITS
CAPACITY as TRUSTEE, THE BEAR STEARNS
COMPANIES, LLC; CITIGROUP INC, MERSCORP
HOLDINGS INC., MORTGAGE ELECTRONIC
REGISTRATION SYSTEMS INC., SUNTRUST
BANKS, INC., IRINA DASHEVSKY, AND LOCKE
LORD LLP and RICHARD RICE
Defendants-Appel lees

On Appeal from the United States
District Court for the Northern District
of Illinois, Eastern Division Docket No 1:17-cv-07714
The Honorable Charles P. Kororas
MOTION FOR SUMMARY JUDGMENT
AND TO STRIKE APPELLEES RESPOND TO
APPELLANTS JURISDICTIONAL
MEMURANDUM

Now Comes the Appellants Steven E. Davis,
Cheryl M. Malden, Cheryl Bell, Larry and Belinda
Brown, Louis G. Bartucci, Dennis F. and Susan R.
Martinek, Darryl and Ann Coney-Bell, Denise
Woodgett on behalf of Estate Darren Woodgett,
Zdzislaw Krajewski, Peggy L. Strong, Emmanuel
S. and Connie C. Bansa, Ulsen and Georgia
Anderson, Geraldine Blanton and Jeffery R.
Sanders Plaintiffs-Appellants on behalf of
themselves and all other Plaintiffs/Appellants

Members associated with this lawsuit. To strike
Appellees Response pursuant to Rule 12 (4) (f) of
Response pursuant to Rule 12 (4) (f) of

17

Federal Rule of Civil Procedure and Seek
Summary judgment that is appropriate where the
court is satisfied "that there is no genuine issue as to any material fact and that
the moving party
is entitled to a judgment as a matter of law." Fed.
Rule Civ. Proc. 56(c).
The burden of establishing the nonexistence of
a "genuine issue" is on the party moving for
summary judgment. We think that the position
taken by the majority of the Court of Appeals is
inconsistent with the standard for summary
judgment set forth in Rule 56(c) of the Federal
Rules of Civil Procedure. Under Rule 56(c),
summary judgment is proper "if the pleadings,
depositions answers to interrogatories, and
admissions on file, together with the affidavits, if
any, show that there is no genuine issue as to
any material fact and that the moving party
is entitled to a judgment as a matter of law."
On October 26, 2017 Appellants, properly
served Bank of America Corporation,
Wells Fargo & Company, US Bank Trust
N.A., as Trustee for LSF9 Master
Participation Trust, JP Morgan Chase Bank
N.A., Citigroup Inc. was served, with
summons in a civil action pursuant to Fed. R. Civ. P. 12 (a) (2) or (3). Their answer
or plead was due November 16, 2017. HSBC Bank USA N.A.,

Bank of New York Mellon Irina Dashevsky Locke Lord LLP, was served on October
30, 2017, their
answer or otherwise plead was due on
November 22, 2017, Mortgage Electronic
Registration Systems, Merscorp Holding
Inc., Attorney Richard Rice and Bear
Stearns Co. LLC served on November 17,
2017, SunTrust Bank was served on the
November 27, 2017, by County Sheriffs.
Green Tree Financial Corp. aka Ditech

18

Financial LLC was certified mail on November 21,
2017, {tracking # 70142870000164971045} which
they signed the return card on 11/20/2017
their responds were due no-later December 6,
2017. On 11/27/2017 a motion for “Entry of
Default” pursuant Fed. R. Civ. 56 (a)(c) was filed as
Doc # {59} by Appellant Sonya Davis on behalf of
herself and all other Plaintiffs Members against
Citigroup Inc. and Bank of New York Mellon
Trustee for failure to answer or otherwise plead.
On 12/01/2017 as Doc # {61} Citigroup Inc., file their appearance as Doc # {64}.
Whereas, Attorney
Richard Rice file motion For Leave to appear Pro
Hac Vice on 12/01/2017 as Doc # {65} but fail to
Appear in court on both days 12/05 and 12/14/2017.
as well As Bank of New York Mellon Trust and
Green Tree Financial aka Ditect Financial
Inc. failure to appear, or and answer Appellants
complaint in response to the summon pursuant

FED. R. CIV. P. 55(a):
“When a party against whom a judgment
for affirmative relief is sought has failed to
plead or otherwise defend, and that failure
is shown by affidavit the clerk must enter
the party’s default.
The trial Court ignored our motion which
Was target toward Bank of New York Mellon and
Citigroup Inc. since they were the only parties that
had defaulted during that time. On December 27,
2017 Appellants filed their “Notice of Appeal” for Appellees Default pursuant Fed.
R. Civ. App.56 (a) (b) (1) and Rule 60 -Relief from a Judgment or Order Appellants
also citing part C of Rule 60:
(c) Timing and Effect of the Motion.
Timing. A motion under Rule 60(b) must
Be made within a reasonable time—and

19

For reasons (1), (2), and (3) no more
than a year after the entry of the
judgment or order or the date of the
proceeding.
■(d) Other Powers to Grant Relief.
This rule does not limit a court’s power
to: (3) set aside a judgment for fraud on
the court.
In February the Appellees filed their brief
claiming that Appellee Citigroup Inc. was
never served but nevertheless, chose to
appear and defend the case. Citigroup Inc.
in fact Citigroup is the parent company of
CitiBank and CitiMortgage divisions.

Therefore, they were properly served.
Citigroup Inc., which has a business address
known as 399 Park Ave. New York, NY 10043, and
a register address as CITIGROUP INC. 388 GREENWICH ST NEW YORK, 10013.

If
the Appellees wanted to dispute this, they had ever
opportunity to do so in the trial court but fail to do
so. They also contended that Bank New York
Mellon Corp. was never served.
Appellees simply trying with every means
possible to defend themselves in the appeal court.
Therefore, Appellants seeking summary judgment.
At the end of day... they just simply trying
To enforce their pleading though the Appeal Court.
The Appellees are aware that they can continue to
Falsify statements without any negative recourse
from the Court Staff Attorneys whom have stated
in the order dismissing Appellants, brief on
June 25. 2018, that they agreed with the
Appellees. Since, Pro Se Litigants has been
crucified especially the Pro Se Appellants in this
case can honestly confess to this type of treatment.
By looking at the previous motions, brief and

20

petition were unduly denied without any
explanation to why they were denied, even the
motion for explanation/opinion was denied. That’s
not considered justice, but it does signal
discrimination and violation of “Due Process”
under the 14th Amendment of the United States
Constitution. On March 12, 2018 Appellants filed
Their reply brief explaining how the
Appellants must prove that the defendant

made a false representation of a material
fact with knowledge of its falsity for the purpose of
inducing the plaintiff to act thereon. If the Staff Attorneys reviewed the documents
and the
transcripts, they would observe that the Appellees
made no attempt to argue or litigate with the
Appellants in the trial court. There’re trying to
strategically to convince this Court to participate in
perpetrating a fraud upon the Appellant Sonya
Davis by way of influencing the Court Staff
attorneys to over-look their deceitful revenge to
sabotage this case.
The Appellant Sonya Davis inserted certify
copies of the return summons as well as a
copy of the motion for default. Why haven’t the
Appellees produced any evidence against the
Appellants. Appellants demands that this court
should require a serious and unequivocal answer.
To be in full compliance with F.R.C. P. 8.
on June 25, 2018, Appellants appeal was dismissed by the alleged Judges Frank
Easterbrook, Amy C.
Barrett, and Michael B. Brennan for reasons.
Previously stated Within our prior Memoranda and Jurisdictional Docketing
Statement.
{Repeating would be a waste of time} Appellees was ordered to respond by
09/07/2018 within
their respond Appellant Sonya Davis was the

21

primary conversation for pointing-fingers.
Appellees only mention the memoranda when

they stated that the Appellants “Notice of Appeal”
was untimely and lack Jurisdiction because the
appeals were 244 days after the District Court
entered its final judgment.
The Appellees continue elaborate about how
Appellant Sonya Davis could not represent the
other Appellants within her notice of appeal and
her appeal was nullity vis-a-vis Appellants. In
their foot notes they try to use Lewis v. LencSmith Mfg. Co. 784 F. 784 F. 2d 829 (7th Cir. 1986)
claiming this case law does not help the
Appellants. Chief Judge, WOOD was one of the
primary Judge whom inform the Appellant
Effie Mae Lewis “Accordingly, we strike both the
appearance of Anna Marie Wright in this
appeal and the brief that she filed. Lewis, since
she is not represented by counsel, must take full
responsibility for her appeal. See HerreraVenegas, 681 F.2d at 42. As such, Lewis is
required to sign the notice of appeal. The facts the
Appellants was making here was “how Chief Judge
Wood gave her that privileged opportunity to file
her own appeal whereas, the Appellants in this case was never offered that same
equal opportunity.
This was nothing more than a meritorious
defense because the Appellees would not produce
any kind factual response the Appellants
Memoranda, so therefore, the Appellants
requesting that the Appellees respond be stricken and the Appellants be granted
summary
judgment. The Appellees further contended that

22

the Appellant Sonya Davis’ notice of appeal was not “correct and complete”
(presumably because it was missing their signatures) this is baseless it is not the
Clerk or Court’s job to vet a pro se plaintiffs
papers. Appellees also states; “We conclude that
pro se litigants do not have a right to general
legal advice from judges. First, the Appellee must
assert proof that the Appellants asked any Judge
for legal advice. Appellants asserts that the court
staff misled us into believing our notice of appeal
was correct and complete. If the Appellants was
given any kind of equal justice as the Appellees
try to state above claiming we as pro se litigants do not deserved equal justice.
THE SEVENTH CIRCUIT OPERATING
PROCEDURES
2) Routine Motions. Routine motions (see
subparagraph (7)) will be given to court staff who
will read the motion and any affidavit in support
thereof as well as any response to the motion. The designated staff member is then
authorized, acting
pursuant to such general directions and criteria
as the court prescribes, to prepare an order in the
name of the court either granting or denying the
motion or requesting a response to the motion.
If the designated staff member has any questions
about what action should be taken; the motions
judge will be consulted. Once a panel has been
assigned for the oral argument or submission of an

appeal, or after an appeal has been orally argued or
submitted for decision without oral argument, the court staff should consult the
presiding judge on
motions that would otherwise be considered
routine.]

23

Appellees claims that Appellants belief that we
should have been afforded leniency with respect to the appeal deadlines because
we were pro se,
this Court is not “empowered” to enlarge appellate
deadlines. With all due RESPECT upon this
Court and the Appellees “LENIENCY” is a very
Strong word when one can purely use it without
“GUILT” speaking of leniency then explain to
the Appellants why the appellees especially
Attorney Richard Rice was given leniency?????
When the Court first ordered the Appellees on
March 26, 2018 to amend their Jurisdictional
Statement Leniency: “The fact or quality of being more merciful or tolerant than
expected; clemency” "the court could show leniency"
This is a clear case of Plausible deniability the
Appellees are so busy trying to hide behind this
Court, they are truly being willfully ignorant of
the actions. While trying to deprive the
Appellants of their “DUE PROCESS”. The
Appellees has done nothing more than to give
credit to Appellant Sonya Davis.

The Appellees also stated within their foot notes
that the Appellant did not attempt to intervene, claiming Lewis does not allow
PlaintiffsAppellants—who knew that they had to prosecute
their own appeals but sat on their hands. If the
could have intervene it would not have been any doubt that would have taken place
within that time-period. Once again, the Appellees are using
jargon to offset the appeal Court real fining. Their
response is frivolous they brought this bad faith for purpose of harassing the
Appellants. It is
well-settled that the amount in controversy is to
be measured for subject matter jurisdiction

24

purposes by the value of the right that the
plaintiffs seek to enforce or to protect against the
defendants’ conduct or the value of the
object that is the subject matter of the action.
In our view, the plain language of Rule 56(c)
mandates the entry of summary judgment, after
adequate time for discovery and upon motion,
against a party who fails to make a showing
sufficient to establish the existence of an element
essential to that party's case, and on which that
party will bear the burden of proof in such a
situation, and if there were any doubt about
the meaning of Rule 56(c) in this regard, such doubt is clearly removed by Rules
56(a) and (b),
which provide that claimants and defendants,
respectively, may move for summary judgment
"with or without supporting affidavits”.
Therefore, with all the facts stated above the
Appellants move this Court for “Summary

Judgment” and to strike the appellees response
pursuant to Rule 12 (4) (f) of Federal Rule of Civil Procedure.
CONCLUSION
Appellants has described or argued to best of their
knowledge to bring forth the true element of their
case. Many might say that Appellant Sonya Davis is practicing law in reality this
is known as
research. Appellants prey that this Court grant us leniency base on the evidence
on record and the evidence provided early in this case. Granting
Appellants damages and punitive damages for
emotional stress, humiliation and ridiculing the
Pro Se Appellant.
Respectfully

25

App H
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Everett McKinley Dirksen United States
Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604
Office of the Clerk Phone: (312) 435-5850
www.ca7.uscourts.gov
ORDER
March 12, 2018
District Judge Charles P. Kocoras
17-cv-07714 No. 18-2701-2719
RULE TO SHOW CAUSE
To: Mr. Richard Allan Rice
RICE LAW FIRM, LLC
N. 420 20th Street Suite 2200
Birmingham, AL 35203
You have failed to file appellee's brief within the

26

required time and no motion for an extension of time within which to file appellee's
brief has been
made pursuant to Circuit Rule 26. IT IS
ORDERED that you, as appellee, show cause
within fourteen (14) days of the date of this order why this appeal should not be
submitted to the

Court for decision without a brief and without
oral argument by the appellee, pursuant to
Circuit Rule 31(d).
IT IS FURTHER ORDERED that briefing is
SUSPENDED pending further court order.
Please caption your response: "RESPONSE TO
RULE TO SHOW CAUSE FOR APPELLEE.

27

App I
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Everett McKinley Dirksen United States
Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604
Office of the Clerk Phone: (312) 435-5850
www.ca7.uscourts.gov
ORDER
September 20, 2018
District Judge Charles P. Kocoras
17-cv-07714
No. 18-2701-2719
The following is before the court:
MOTION TO DISCIPLINE RICHARD RICE FOR
REFUSAL TO COMPLY WITH COURT ORDERS
filed on September 18,2018 by the pro se appellant
A review of the docket indicates that briefing in
These consolidated appeals has been suspended
pending resolution of jurisdictional issues, and
that the appellees have complied with the court
order dated August 30, 2018. Accordingly,
IT IS ORDERD that the motion will be filed without court action.

App J

28

14th AMENDMENT TO THE U.S.
CONSTITUTION
to the Constitution was ratified on July 9,1868, and
granted citizenship to “all persons born or
naturalized in the United States,” which included
former slaves recently freed.
In addition, it forbids states from denying any
18 U.S. Code § 242. Deprivation of rights
under color of law Whoever, under color of any law, statute, ordinance,
regulation, or custom, willfully subjects any person in any State.
Territory, Commonwealth, Possession, or District
to the Deprivation of any rights, privileges, or
immunities secured or protected by the
Constitution or laws of the United States, or to
different punishments, pains, or penalties, on
account of such person being an alien, or by
reason of his color, or race, than are prescribed for the punishment of citizens, shall
be fined under this
title or imprisoned not more than one year, or both;
and if bodily injury results from the acts committed in violation of this section or if
such acts include
the use, attempted use, or threatened use of a
dangerous weapon, explosives, or fire, shall be fined under this title or imprisoned
not more than ten
years, or both; and if death results from the acts committed in violation of this
section or if such acts

include kidnapping or an attempt to kidnap,
aggravated sexual abuse, or an attempt to commit
aggravated sexual abuse, or an attempt to kill, shall
be fined under this title, or imprisoned for any term
of years or for life, or both, or may be sentenced to
death.

29

App L
United States Court of Appeals
For the Seventh Circuit
[This case is “CRUCIAL” to Petitioners’ case]
No. 17-2080
NORMA L. COOKE
Plaintiff-Appellee,
v.
JACKSON NATIONAL LIFE
INSURANCE COMPANY,
Defendant-Appellant.

30

Appeal from the United States District Court
for the Northern District of Illinois,
Eastern Division. No. 15 C 817 —
Ruben Castillo, Chief Judge.
ARGUED JANUARY 11, 2018 —
DECIDED FEBRUARY 9, 2018
Before EASTERBROOK
BARRETT, Circuit Judges,
STADTMUELLER,
District Judge.* EASTERBROOK, Circuit Judge.
In this suit under the diversity jurisdiction, the
district court entered summary judgment for

Norma Cooke. The judge ordered two kinds
of relief: first, that Jackson National Life
Insurance Co. pay Cooke the
of the

Eastern

District

of

Wisconsin, sitting by
designation.
death benefit on her husband Charles’s policy; second, that Jackson reimburse
Cooke’s legal
expenses. The first kind of relief rested on
a conclusion that Charles died before the end of
grace period allowed for late payments of
premiums. The second rested on a conclusion that
Jackson should have expedited the litigation by
attaching documents to its answer to the complaint and by making some arguments
sooner. See 243 F.
Supp. 3d 987 (N.D. Ill. 2017). The district court then entered this order, which the
parties have treated as the final judgment: Enter
Memorandum Opinion and Order. Plaintiffs
motion for summary judgment [47] is granted and Defendant’s motion for summary
judgment [42] is denied. The Court awards attorney fees to

31

Plaintiff for cost of preparing and responding to
these motions.
This case is hereby dismissed with prejudice. This document set the stage for the
problems we must
now resolve. This document is self-contradictory,
declaring that Cooke is entitled to two forms of
relief while also declaring that the case is
“dismissed with prejudice”, which means that the

plaintiff loses. Suppose we disregard the last
sentence—and the first, which is surplusage.
There remains the rule that a judgment must
provide the relief to which the prevailing party is
entitled. See, e.g., Foremost Sales Promotions,
Inc. v. Director, Bureau of Alcohol, Tobacco &
Firearms, 812 F.2d 1044 (7th Cir. 1987); Waypoint Aviation Services Inc. v. Sandel
Avionics, Inc.,
469 F.3d 1071, 1073 (7th Cir. 2006); Rush
University Medical Center v. Leavitt, 535 F.3d
735, 737 (7th Cir. 2008). This document does not
provide relief. It states that one motion has been
granted, another denied, and an award made, but it does not say who is entitled to
what. We have
held many times that judgments must provide
relief and must not stop with reciting that
motions were granted or denied—indeed that it is
inappropriate for a judgment to refer to motions at all. See, e.g., Otis v. Chicago, 29 F.3d
1159, 1163 (7th Cir. 1994) (en banc) (“[The judgment]
should be a self-contained document, saying who
has won and what relief has been awarded, but
omitting the reasons for this disposition, which
should appear in the court’s opinion.”). See also
Fed. R. Civ. P. 54(a) (“A judgment should not
include recitals of pleadings ... or a record of prior
proceedings.”). This document transgresses
almost every rule applicable to judgments. The
same day it entered the order we quoted above,

32

the court entered a second order on a standard
form used for judgments. This one provides:

Judgment is entered in favor of plaintiff, Norma L. Cooke and against the
defendant, Jackson
National Life Insurance Company, which
includes an award of reasonable
attorney fees in accordance with the Court’s
Memorandum Opinion and Order. This second
document avoids the internal contradiction but still lacks vital details. Unlike the
first document,
which is signed by the district judge, this one bears only the names of the district
court’s Clerk
of Court and one Deputy Clerk— though Fed. R.
Civ. P. 58(b)(2)(B) provides that every judgment
other than a simple one on a jury verdict (or one fully in defendants’ favor) must be
reviewed and approved by the judge personally. Recognizing
that she did not have an enforceable judgment,
Cooke filed a motion under Fed. R. Civ. P. 59(e)
asking the court to specify how much money
Jackson must pay. The court did so—but only in
part. It entered an order providing hat Jackson
must pay $191,362.06 on the insurance policy,
plus 10% per annum simple interest running
from September 10, 2013.
The amount of attorneys’ fees was left dangling.
Cooke also filed a formal petition asking the court
to specify the amount of fees. The district court left the subject open for nine
months—until
after this case had been orally argued in this
court.

33

On January 25, 2018, the district court denied the
Motion with leave to renew it after we decide the
appeal. Within 30 days of the district court’s order on Cooke’s Rule 59 motion,
Jackson filed a notice of appeal. It has thrown in the towel on the merits and paid
the $191,362 plus interest but contends that Cooke is not entitled to attorneys’ fees.
Yet how can it appeal from an award of attorneys’ fees that has yet to be quantified?
A declaration of liability lacking an amount due
is not final and cannot be appealed. See Liberty
Mutual Insurance Co. v. Wetzel, 424 U.S. 737
(1976). This rule applies to awards of attorneys’
fees as fully as it does to decisions about
substantive relief. See, e.g., Lac Courte Oreilles
Band of Lake Superior Chippewa Indians v.
Wisconsin, 829 F.2d 601 (7th Cir.1987); McCarter v. Retirement Plan for District
Managers, 540 F.3d 649, 652- 54 (7th Cir. 2008); General Insurance Co. v. Clark
Mall Corp., 644 F.3d 375, 380 (7th Cir. 2011). To allow an appeal before
quantification would set the stage for multiple
A declaration of liability lacking an amount due
is not final and cannot be appealed. See Liberty
Mutual Insurance Co. v. Wetzel, 424 U.S. 737
(1976). This rule applies to awards of attorneys’
fees as fully as it does to decisions about
substantive relief. See, e.g., Lac Courte Oreilles
Band of Lake Superior Chippewa Indians v.
Wisconsin, 829 F.2d 601 (7th Cir.1987); McCarter v. Retirement Plan for District
Managers, 540 F.3d 649, 652- 54 (7th Cir. 2008); General Insurance Co. v. Clark
Mall Corp., 644 F.3d 375, 380 (7th Cir. 2011). To allow an appeal before

quantification would set the stage for
multiple appeals from a single award: one appeal
contesting the declaration of liability and another contesting the amount. The finaldecision rule of
28 U.S.C. §1291 is designed to prevent multiple
appeals on different issues in a single case. We
directed the parties to file supplemental
memoranda on appellate jurisdiction. Cooke’s
memorandum states the obvious: the absence of a
dollar figure makes the award of attorneys’ fees
non-final. Jackson’s memorandum, by contrast,
tells us that decisions on the merits and awards of

34

attorneys’ fees are separately appealable. That’s true enough, see
Budinich v. Becton Dickinson & Co., 486 U.S. 196
(1988), but irrelevant to the question whether an
award of attorneys’ fees may be appealed before the judge has decided how much
is due. If Jackson were contesting the award on the policy, we would have appellate
jurisdiction to consider that issue, but
this does not make the district court’s bare
statement about attorneys’ fees appealable. As Budinich held, a decision on the
merits and an
award of legal expenses are independent
for the purpose of appellate jurisdiction. Cooke
wants more than an order dismissing Jackson’s
appeal. She has filed a motion under Fed. R. App. P. 38 seeking attorneys’ fees that
she has incurred in responding to what she now calls a frivolous appeal. We deny
this motion, because any costs
that Cooke has incurred are largely self-inflicted.
Cooke could have filed a motion months

Ago (before briefing) asking us to dismiss
Jackson’s premature appeal, but she did not do
so. Indeed, the jurisdictional section of Cooke’s
brief on the merits does not point out that an
unquantified award isn’t final. Not until this court raised the issue at oral
argument did Cooke
address the significance of the district judge’s
failure to say how much Jackson owes. If it were
permissible for a court to order both sides to pay a
penalty—say, into the law clerks’ holiday-party
fund—we would be inclined to do so. But there’s no such appellate power and no
good reason for us to order Jackson to pay something to Cooke as a
result of a problem that both sides missed.
Jackson’s appeal is dismissed for want of
jurisdiction. Any successive appeal from an order quantifying the award will be
heard by this
panel and decided without a new oral argument.
(The merits were covered during the argument
already held.) Unless either side wants to contest the amount of the award, it
should be possible to
submit a successive appeal for decision on the

35

existing briefs. The parties should inform us
promptly after any new appeal is taken whether they want to supplement the briefs
already on file.

App M
Part Two:
United States Court of Appeals
For the Seventh Circuit
Nos. 18-3527 & 18-3583
NORMA L. COOKE
Plaintiff-Appellee,
v.
JACKSON NATIONAL LIFE
INSURANCE COMPANY,
Defendant-Appellant.
Appeal from the United States District Court
for the Northern District of Illinois,
Eastern Division. No. 15 C 817 —
Ruben Castillo, Chief Judge.
SUBMITTED MARCH 12, 2019 — DECIDED MARCH 26, 2019
Before EASTERBROOK and BARRETT, Circuit
Judges, and STADTMUELLER, District Judge. *
EASTERBROOK, Circuit Judge.

36

In this suit under the diversity jurisdiction, a district court ordered Jackson
National Life Insurance to pay about $191,000 on a policy of life insurance.243 F.
Supp. 3d 987 (N.D. Ill. 2017). The court added that the * Of the Eastern District of
Wisconsin, sitting by designation.

Nos. 18-3527 & 18-3583
Nos.18-3527 & 18-3583
insurer had litigated unreasonably and ordered it to reimburse Cooke’s legal fees
under 215 ILCS
5/155. (Throughout this opinion “Cooke” refers to
plaintiff Norma Cooke, the widow of decedent
Charles Cooke.) The insurer paid the death
benefit and appealed to contend that the court
should not have tacked on attorneys’ fees. But
because the district court had not specified how
much the insurer owes, we dismissed the appeal
as premature. 882 F.3d 630 (7th Cir. 2018). The
district court then Awarded $42,835 plus
interest. 2018 U.S. Dist. LEXIS 197908 (N.D. Ill.
Nov. 20, 2018). The insurer filed another appeal
(No. 18-3527), which we resolve using the briefs
filed in its initial appeal (No. 17-2080). Cooke
filed a cross-appeal (No. 18-3583). Her lead
contention is that the district court should have awarded a higher death benefit,
but that argument comes too late. As our first decision explains, a
judgment on the merits and an award of attorneys’ fees are separately appealable.
Budinich v. Becton Dickinson & Co., 486 U.S.
196 (1988). Cooke did not appeal within 30 days of
the district court’s order specifying the amount
payable on the policy, and a later award of attorneys’ fees does not reopen that
subject.
Instead of seeking additional fees, Cooke’s brief
in No. 18-3583 is principally devoted to
contending that the judge did the right thing for

37

the wrong award under §5/155 and consider all of the arguments in all of the briefs
filed in Nos. 172080 and 18-3583 Section 5/155(1) provides: In
any action by or against a company wherein
there is in issue the liability of a company on a
policy or policies of insurance or the amount of
the loss payable thereunder, or for an
unreasonable delay in settling a claim, and it
appears to the court that such action or delay is
vexatious and unreasonable, the court may allow as part of the taxable costs in the
action reasonable
attorney fees, other costs, plus an amount not to
exceed any one of the following amounts: (a) 60% of the amount which the court or
jury finds such party
is entitled to recover against the company,
exclusive of all costs; award under §5/155 and consider all of the arguments in all
of the briefs filed in Nos. 17-2080 and 18-3583 Section 5/155(1) provides: In any
action by or against a company
wherein there is in issue the liability of a company on a policy or policies of
insurance or the amount of
the loss payable thereunder, or for an
unreasonable delay in settling a claim, and it
appears to the court that such action or delay is
vexatious and unreasonable, the court may allow
as part of the taxable costs in the action reasonable attorney fees, other costs, plus
an amount not to
exceed any one of the following amounts: (a) 60% of the amount which the court or
jury finds such party is entitled to recover against the company,
exclusive of all costs;
(b) $60,000; (c) the excess of the amount which the

court or jury finds such party is entitled to
recover, exclusive of costs, over the amount, if any, which the company offered to
pay in settlement of
the claim prior to the action.
The district judge understood this statute to
allow an award either for pre-litigation conduct or for behavior during the
litigation. 243 F. Supp. 3d at 1006. He wrote that “Jackson’s denial of

38

coverage was based on a good- faith dispute
regarding the nature of Cooke’s payments” (ibid.)
and that the insurer could not properly be
penalized for insisting that a judge resolve the
parties’ dispute. But, the judge added, “Jackson’s
behavior in this litigation has been much less
reasonable.” Id. At 1007. The judge faulted the
insurer because it opposed Cooke’s motion for
judgment on the pleadings without attaching the full policy to its papers. Jackson
observed that
Cooke had not supplied the court with all of the
pertinent writings (which included an electronic funds transfer agreement as well
as the policy) but
failed to do so itself, until the summary-judgment
stage, and the judge thought this unreasonable.
Ibid. The judge summed up (ibid.): This Court
believes that this case could have been resolved on Plaintiffs motion for judgment
on the pleadings one year.

App N
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Everett McKinley Dirksen United States
Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604
Office of the Clerk Phone: (312) 435-5850
www.ca7.uscourts.gov
ORDER
November 30, 2018
District Judge Charles P. Kocoras
No. 18-2717

39

ULSEN ANDERSON, et al., Plaintiffs - Appellants
V.
BANK OF AMERICA CORPORATION, et al.,
Defendants - Appellees
The following is before the court: MOTION TO
WITHDRAW, filed on November 26, 2018, by the
pro se appellants. Appellants Ulsen and Georgia
Anderson ask the court to dismiss their appeal
Due to the district court's delay in ruling on their
motion to proceed in forma pauperis on appeal.
On November 26, 2018, the district court denied
the appellants' in forma pauperis motion.
Because the motion is no longer pending, it is
unclear if the appellants would still like to
voluntarily dismiss their appeal. If they would

like to proceed with their appeal, the appellants must either pay the $505.
Appellate filing or file a renewed motion for leave to proceed in forma
pauperis
with this court by December 28, 2018, or else the
appeal may be dismissed for failure to prosecute
pursuant to Circuit Rule 3(b). If they would still
like to dismiss their appeal, the appellants can file renewed motion to voluntarily
dismiss the appeal pursuant to Federal Rule of Appellate Procedure
42(b).
Note: This the same order for Petitioners Yvonne
Singleton

40

App 0

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
Everett McKinley Dirksen United States
Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604
Office of the Clerk Phone:
(312) 435-5670
November 26, 2018
Fees
Court Name: Northern District of Illinois Court Name:
Northern District of Illinois
Division: 1
Receipt Number:462421472
Cashier ID: y Thomas
Transaction Date:
11/26/2018
Payer Name: Larry Brown
NOTICE OF APPEAL/DOCKETING FEE
APPEAL/DOCKETING
FEE
For: LARRY BROWN
Amount: $505
CASH
Amt Tendered: $505.00

41

$505
Total Due:
Tendered $505
NOTICE OF APPEAL NO. 18-2718
LARRY BROWN
CASE NO. 17-CV-7714
(time docketed 3:37 pm)
11/26/2018

Court Name: Northern District of Illinois Court Name:
Northern District of Illinois
Division: 1
Receipt Number: 462421475
Cashier ID: y Thomas
Transaction Date:
Payer Name: Joan M. Holley
11/26/2018
NOTICE OF APPEAL/DOCKETING FEE
APPEAL/DOCKETING
FEE
For: JOAN M. HOLLEY
Amount: $505
CASH
Amt Tendered: $505.00
Total Due:
$505
Tendered $505
NOTICE OF APPEAL NO. 18-2714 CASE NO. 17-CV-7714
JOAN.M. HOLLEY (time docketed 3:39 pm)
Court Name: Northern District of Illinois Court Name:
Northern District of Illinois
Division: 1
Receipt Number: 4624214176
Cashier ID: y Thomas
Transaction Date:
Payer Name: Geraldine Blanton
11/26/2018
NOTICE OF APPEAL/DOCKETING FEE
APPEAL/DOCKETING
FEE for: GERALDINE BLANTON
Amount: $505
CASH Amt Tendered: $505.00
Total Due: $505 Tendered $505
NOTICE OF APPEAL NO. 18-2716
(time docketed 4:03 pm)
11/26/2018

42

Court Name: Northern District of Illinois Court
Division: 1
Receipt Number: 4624214174
ID: yThomas
Transaction Date: 11/26/2018
Payer Name: ELIZEBETH ROBINSON
NOTICE OF APPEAL/DOCKETING FEE
For: ELIZABETH ROBINSON
Amount: $505
Cash Amt Tendered: $505.00
Total Due: $505
Total Tendered $505
NOTICE OF APPEAL NO. 18-2717
(time docketed 3:49 pm)
Court Name: Northern District of Illinois
Division: 1
Receipt Number: 4624215234
Cashier ID: Larcos
Transaction Date: 12/12/2018
Payer Name: GEORGIA and ULSEN ANDERSON
NOTICE OF APPEAL/DOCKETING FEE
For: GEORGIA and ULSEN ANDERSON
Amount: $505
CASH Amt Tendered: $505.00
Amt Tendered: $505
Total Due:
$505

NOTICE OF APPEAL NO. 18-2717
CASE NO. 17CV7714

Court Name: Northern District of Illinois
Division: 1
Receipt Number: 4624215235
Cashier ID: Larcos

43

Transaction Date: 12/12/2018
Payer Name: Yvonne Singleton
NOTICE OF APPEAL/DOCKETING FEE
For: YVONNE SINGELTON
Amount: $505
CASH Amt Tendered: $505.00
Amt Tendered: $505
Total Due:
$505

NOTICE OF APPEAL NO. 18-2717
CASE NO. 17CV7714

AppP
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
Everett McKinley Dirksen
United States Courthouse Room 2722 219 S. Dearborn Street
Chicago, Illinois 60604

£

44

Office of the Clerk Phone: (312) 435-5670
ORDER
November 26, 2018
Before Judge Charles P. Kocoras
17-cv-7714
Plaintiff Sonya Davis, as “representative”
Plaintiff Of approximately 42 plaintiffs
(collectively, “Plaintiffs”), filed a pro se action on
October 25,2017 against 20 defendants, namely
financial institution, law firms, and attorneys
(collectively, “Defendants”). Plaintiffs admit that their
Complaint is a “re-filing” of a previously
Dismissed complaint On November 16, 2017,
Defendants moved for extension of time to
respond to the Complaint indicating additionally their intention to move to dismiss
the case at the
status on December 5, 2017.
Despite Defendants’ response, Plaintiffs filed a
motion for of default judgment on November 27,
2017. At the December status hearing, the Court

dismissed Plaintiffs’ Complaint with prejudice, as it
was nearly identical to multiple previously-filed
and dismissed complaints in various cases in
this district. Now before the Court are seven
applications for leave to appeal in forma pauperis,
brought by Plaintiffs Sonya Davis (“Davis”); Yvonne
Singleton (“Singleton”); Georgia and Ulsen
Anderson (the “Anderson”); Denise Woodgett
(“Woodgett’); Belinda and Larry Brown (the
“Browns”): Joan and Ralph Holleey (the “Holley”);
and Elizabeth Robinson (“Robinson”) (collectively,
the Moving Plaintiffs”). For the following reasons,
the Court denies all requests.
STATEMENT
A party who desires to appeal in Forma

45

pauperis must file a motion in the district court
with an affidavit demonstrating:
“the party’s inability to pay or to give
security for fees and costs;” (2) “an
entitlement to redress;” and (3) “the issues the
party intends to present on appeal.”
Fed. R. App. 24(a). The Seventh Circuit has
further held that a motion to appeal in forma
Pauperis may not be granted where the appeal is not in good faith,” meaning that
it is based on “a
Claim that no reasonable person could supposed to
Have any merit,” Lee v. Clinton, 209 F. 3b 1025,
1026 97th Cir. 2000). The Court summarily rejects
the applications submitted by Singleton, Woodgett, and the Browns for failing to
complete the section

requiring them to state their issues on appeal. This
is a direct violation of Federal Rule of Appellate
Procedure 24(a)(1)(C).
for leave to proceed, rather than appeal, in forma
pauperis. The Court accordingly denies Robinson’s
request as there is no longer a live controversy
before it. As for the remaining three applications,
although they provide information regarding their
inability to pay the required appellate filing fee and the issues they intend to raise
on appeal, they
nonetheless must be denied because they failed to demonstrate their “entitlement
to redress”. The
issues raised in each of these applications refer to
Defendants’ alleged failure to answer or otherwise
plead, which Plaintiff believe should have resulted
in their default two of the applications also note
attorney Richard Rice’s failure to appear in court
on December 5 and December 14, 2017.
The Court perceives neither of these claims as
one that a “reasonable person could suppose to
have any merit.” See Lee, 209 F. 3b at 1026. As

46

mentioned above, the Defendants requested an
extension of time to respond or otherwise plead on November 16, 2017. Plaintiffs
moved for default judgment despite Defendants’ apparent attention to the matter.
When the parties finally appeared
before the Court for an initial status hearing on
December 5, 2017, the case dismissed with
prejudice. Given the circumstances of this case
including the frivolity of Plaintiffs’ Complaint, the

Court cannot certify that the appeals are taken in
good faith. The Court accordingly
CONCLUSION
for the aforementioned reasons, the Court denies
the Moving Plaintiffs’ motions for leave to appeal in forma pauperis. They are thus
required to pay
any filing and docketing fees required by the
Court of Appeals. The Court advises that Federal Rule of Appellate Procedure
24(a)95) permits an
appellant “to file a motion to proceed on appeal in forma pauperis in court of appeal
within 30 days after” the district court clerk provides notice that this Court has
denied the in forma pauperis
application, it is so ordered.

47

t

